No.

In the Supreme Court of the United States
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
ET AL., APPELLANTS
v.
NATALIA USECHE, ET AL.
ON APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND

JURISDICTIONAL STATEMENT
JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
JEFFREY BOSSERT CLARK
Acting Assistant Attorney
General
HASHIM M. MOOPPAN
Counselor to the Solicitor
General
SOPAN JOSHI
Senior Counsel to the
Assistant Attorney General
NICOLE FRAZER REAVES
BRINTON LUCAS
Assistants to the Solicitor
General
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTIONS PRESENTED

Congress has provided that, for purposes of apportioning seats in the House of Representatives, the President shall prepare “a statement showing the whole
number of persons in each State * * * as ascertained
under the * * * decennial census of the population.”
2 U.S.C. 2a(a). It has further provided that the Secretary of Commerce shall take the decennial census “in
such form and content as he may determine,” 13 U.S.C.
141(a), and shall tabulate the results in a report to the
President, 13 U.S.C. 141(b). The President has issued
a Memorandum instructing the Secretary to include
within that report information enabling the President
to implement a policy decision to exclude illegal aliens
from the base population number for apportionment “to
the maximum extent feasible and consistent with the
discretion delegated to the executive branch.” 85 Fed.
Reg. 44,679, 44,680 (July 23, 2020). At the behest of
plaintiffs urging that the exclusion of illegal aliens
would unconstitutionally alter the apportionment, a
three-judge district court declared the Memorandum
unlawful and enjoined the Secretary from including the
information in his report. The questions presented are:
1. Whether the relief entered satisfies the requirements of Article III of the Constitution.
2. Whether the Memorandum is a permissible exercise of the President’s discretion under the provisions
of law governing congressional apportionment.

(I)

PARTIES TO THE PROCEEDING

Appellants (defendants in the district court) are Donald J. Trump, in his official capacity as President of the
United States; the United States Department of Commerce; Wilbur L. Ross, Jr., in his official capacity as Secretary of Commerce; the United States Census Bureau,
an agency within the United States Department of Commerce; and Steven Dillingham, in his official capacity as
Director of the United States Census Bureau.
Appellees (plaintiffs in the district court) are Natalia
Useche; Joyce Brown; Amit Dodani; Natalie Hernandez;
Michael Kagan; Angela Kang; Angel Lira; Charles Park;
Angel Ulloa; Kathi White; Katelyn Cohen; the Arizona
Center for Empowerment; and the Florida Immigrant
Coalition.

(II)

RELATED PROCEEDINGS

United States District Court (D. Md.) (three-judge
district court):
Useche v. Trump, No. 20-cv-2225 (Aug. 26, 2020) (assigning three-judge district court)
Useche v. Trump, No. 20-cv-2225 (Nov. 6, 2020) (entering final judgment and granting permanent injunction and declaratory judgment)
United States Court of Appeals (4th Cir.):
Useche v. Trump, No. 20-2207 (notice of appeal filed
Nov. 6, 2020)

(III)

TABLE OF CONTENTS

Page
Opinion below ................................................................................ 1
Jurisdiction .................................................................................... 1
Constitutional and statutory provisions involved...................... 2
Statement ...................................................................................... 2
Reasons for noting probable jurisdiction ................................... 9
Conclusion ................................................................................... 11
Appendix A — District court memorandum opinion
(Nov. 6, 2020) ............................................... 1a
Appendix B — District court final judgment
(Nov. 6, 2020) ............................................. 37a
Appendix C — District court notice of appeal
(Nov. 6, 2020) ............................................. 39a
Appendix D — Designation of the three-judge panel
pursuant to 28 U.S.C. § 2284(b)
(Aug. 26, 2020) ........................................... 41a
Appendix E — District court request to the chief judge
of the U.S. court of appeals for the
Fourth Circuit to convene a threejudge court under 28 U.S.C. § 2284
(Aug. 17, 2020) ........................................... 43a
Appendix F — Constitutional and statutory provisions..... 47a
TABLE OF AUTHORITIES

Cases:
Franklin v. Massachusetts, 505 U.S. 788 (1992) .................. 4
New York v. Trump, No. 20-cv-5770, 2020 WL
5422959 (S.D.N.Y. Sept. 10, 2020) ....................................... 8
New York v. United States Dep’t of Commerce,
351 F. Supp. 3d 502 (S.D.N.Y.), aff ’d in part,
rev’d in part, and remanded, 139 S. Ct. 2551 (2019)...... 4, 5

(V)

VI
Constitution and statutes:

Page

U.S. Const.:
Art. I, § 2, Cl. 3 .................................................................. 3
Art. III ...................................................................... 6, 9, 10
Amend. XIV, § 2 ................................................................ 3
2 U.S.C. 2a(a) ................................................................... 3, 49a
13 U.S.C. 141(a) ............................................................... 3, 51a
13 U.S.C. 141(b) ............................................................... 3, 51a
28 U.S.C. 2284(b) ..................................................................... 6
Miscellaneous:
83 Fed. Reg. 5525 (Feb. 8, 2018) ............................................ 4
85 Fed. Reg. 44,679 (July 23, 2020) .................................... 2, 5
Press Release, U.S. Census Bureau, U.S. Dep’t of
Commerce, Statement from U.S. Census Bureau
Director Steven Dillingham: Delivering a
Complete and Accurate 2020 Census Count
(Aug. 3, 2020), https://go.usa.gov/xGR2C ........................... 5

In the Supreme Court of the United States
No.
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
ET AL., APPELLANTS
v.
NATALIA USECHE, ET AL.
ON APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND

JURISDICTIONAL STATEMENT

The Acting Solicitor General, on behalf of President
Donald J. Trump, et al., respectfully files this jurisdictional statement on appeal from the judgment of the
three-judge panel of the United States District Court
for the District of Maryland.
OPINION BELOW

The opinion of the three-judge district court (App.,
infra, 1a-36a) is not published in the Federal Supplement but is available at 2020 WL 6545886.
JURISDICTION

Under 28 U.S.C. 2284, a three-judge district court
was required to be convened because appellees’ suit
challenged on constitutional (and other) grounds the
President’s determination concerning standards for including individuals in the apportionment base for reapportioning congressional districts. See App., infra, 23a;
D. Ct. Doc. 18, at 31-35 (Aug. 14, 2020). The judgment
of the three-judge district court, which included a permanent injunction, was entered on November 6, 2020.
(1)

2

App., infra, 37a-38a. The government filed notices of
appeal on November 6, 2020. The jurisdiction of this
Court is invoked under 28 U.S.C. 1253. See Dothard v.
Rawlinson, 433 U.S. 321, 324 n.5 (1977) (holding that an
appeal lies under Section 1253 where a properly convened three-judge district court grants an injunction on
antecedent statutory grounds); White v. Regester, 412
U.S. 755, 760-761 (1973) (holding that where an injunction is appealable under Section 1253, so is an accompanying declaratory judgment).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED

Pertinent constitutional and statutory provisions are
reproduced in the appendix to this pleading. App., infra, 47a-51a.
STATEMENT

This case is one of several challenges to a Memorandum from the President to the Secretary of Commerce
regarding the exclusion of illegal aliens from the apportionment population base determined under the 2020
census. 85 Fed. Reg. 44,679 (July 23, 2020). In one of
those cases, the government appealed to this Court
from an order entered by the United States District
Court for the Southern District of New York that prevented the Secretary from complying with the Memorandum. J.S. App. at 1a-107a, Trump v. New York, No.
20-366 (filed Sept. 22, 2020). This Court postponed consideration of jurisdiction and expedited the appeal on
October 16, 2020, setting oral argument for November
30, 2020. After the Court did so, the United States District Court for the Northern District of California issued essentially the same relief on very similar
grounds; the government appealed from that decision to
this Court, requesting that the Court hold the appeal

3

pending its decision in New York. See J.S. at 10-11,
Trump v. City of San Jose (No. 20-561) (filed Oct. 29,
2020). Following the district court decisions in New
York and San Jose, the district court in this case issued
essentially the same relief, and on the same grounds, as
did the New York court. App., infra, 1a-38a.
1. The Constitution provides that “Representatives
shall be apportioned among the several States according to their respective numbers, counting the whole
number of persons in each State.” U.S. Const. Amend.
XIV, § 2. To make apportionment possible, the Constitution requires the federal government to conduct an
“actual Enumeration” every ten years in “such Manner
as” directed by Congress. Art. I, § 2, Cl. 3.
Congress has directed the Secretary of Commerce to
conduct “a decennial census of population * * * in such
form and content as he may determine.” 13 U.S.C.
141(a) (Census Act). Following completion of the 2020
census, by December 31, 2020, the Secretary must submit to the President “[t]he tabulation of total population
by States * * * as required for the apportionment of
Representatives in Congress among the several
States.” 13 U.S.C. 141(b) (the Secretary’s report or the
report). After receiving the Secretary’s report, the
President must “transmit to the Congress a statement
showing the whole number of persons in each State
* * * as ascertained under the * * * decennial census
of the population, and the number of Representatives to
which each State would be entitled * * * by the method
known as the method of equal proportions,” within one
week of the first day of the next Congress’s first regular
session. 2 U.S.C. 2a(a) (Reapportionment Act).

4

While the President’s role in applying the equalproportions calculation to the apportionment population base is ministerial, his role in determining the population base itself is not. As this Court has recognized,
“§ 2a does not curtail the President’s authority to direct
the Secretary in making policy judgments that result in
‘the decennial census.’ ” Franklin v. Massachusetts,
505 U.S. 788, 799 (1992). Notably, one such “judgment”
is whether a person should be deemed an “ ‘inhabitant’ ”
or “ ‘usual resident’ ” of a State, which is “the gloss” that
has historically been given to the constitutional and
statutory phrase “persons ‘in’ each State.” Id. at 803804, 806 (brackets and citations omitted).
In 2018, the Census Bureau promulgated criteria to
enumerate most people “at their usual residence,”
which it defines as “the place where they live and sleep
most of the time.” 83 Fed. Reg. 5525, 5533 (Feb. 8, 2018)
(Residence Criteria). “Citizens of foreign countries living in the United States” are “[c]ounted at the U.S. residence where they live and sleep most of the time.” Ibid.
(emphasis omitted). Foreign citizens visiting the
United States (such as individuals on a vacation or business trip) are not counted under the Residence Criteria.
Ibid.
The Bureau uses a number of methods to ensure that
individuals are counted as part of the decennial census.
For the 2020 census, individuals are being enumerated
through (1) census-questionnaire responses online, by
mail, or by phone; (2) visits by enumerators; (3) proxy
responses given by knowledgeable individuals such as
neighbors or landlords; (4) high-quality administrative
records from other federal agencies; and (5) potentially,
data imputed from the same area (used as a last resort
to fill data gaps). New York v. United States Dep’t of

5

Commerce, 351 F. Supp. 3d 502, 521 (S.D.N.Y.), aff ’d in
part, rev’d in part, and remanded, 139 S. Ct. 2551 (2019).
2. On July 21, 2020, the President issued a Memorandum to the Secretary of Commerce regarding the
exclusion of illegal aliens from the apportionment population base under the 2020 census. 85 Fed. Reg. at
44,679-44,681. The Memorandum states that “it is the
policy of the United States to exclude from the apportionment base aliens who are not in a lawful immigration status under the Immigration and Nationality Act,
as amended, to the maximum extent feasible and consistent with the discretion delegated to the executive
branch.” Id. at 44,680 (citation omitted). The Memorandum directs the Secretary to submit to the President
two tabulations in the Secretary’s report. One is an enumeration “tabulated according to the methodology set
forth in” the Residence Criteria. Ibid. The second consists of “information permitting the President, to the
extent practicable,” to carry out the policy of excluding
illegal aliens from the apportionment “to the maximum
extent of the President’s discretion under the law.”
Ibid.
The Census Bureau is evaluating the extent to which,
as a practical matter, administrative records pertaining
to immigration status can be used to identify and exclude illegal aliens from the apportionment population
count. “A team of experts [is] examining methodologies
and options to be employed for this purpose.” Press Release, U.S. Census Bureau, U.S. Dep’t of Commerce,
Statement from U.S. Census Bureau Director Steven
Dillingham: Delivering a Complete and Accurate 2020
Census Count (Aug. 3, 2020), https://go.usa.gov/xGR2C.
That process continues, and the “Bureau does not know
exactly what numbers the Secretary may report to the

6

President.” Doc. 84-1, at 4, City of San Jose v. Trump,
No. 20-cv-5167 (N.D. Cal. Sept. 10, 2020).
3. On July 31, 2020, appellees—a group of individuals and nonprofit organizations—filed a complaint challenging the Memorandum. App., infra, 6a-7a. Appellees
alleged, among other things, that the Memorandum violates the Census Act and the Reapportionment Act. Id.
at 7a. At appellees’ request, a three-judge district court
was convened to consider this case pursuant to
28 U.S.C. 2284(b). See App., infra, 7a n.1, 45a-46a.
4. On November 6, 2020, the district court held that
the Memorandum violates the Census Act and Reapportionment Act, granted partial summary judgment and a
final judgment to appellees on those claims, and entered
declaratory and injunctive relief. App., infra, 1a-36a.
The court’s decision frequently referred to, and at some
points relied heavily on, the New York district court’s
decision, which likewise had found that the Memorandum violates the Census Act and Reapportionment Act.
See, e.g., id. at 22a (noting that it “agree[d] with” the
New York district court’s decision and “incorporate[d]”
its “detailed reasoning to the extent the issues are presented identically here”).
a. The district court below began by holding that appellees satisfied Article III’s requirements to seek relief. App., infra, 10a-22a. The court found that appellees have standing on the theory that implementation of
the Memorandum “creates a ‘substantial risk’ that
states in which at least some of the individual [appellees] reside”—namely, California and Texas—“will lose
congressional seats.” Id. at 13a. The court rejected the
government’s argument that appellees’ asserted apportionment injury is too speculative to support injury-infact because it is unknown how many illegal aliens the
President may be able to exclude from the population

7

base for apportionment, and thus whether any appellee
lives in a State that would suffer the loss of a congressional seat. See id. at 10a, 13a-18a. The court concluded
that despite language in the Memorandum setting forth
a policy of excluding illegal aliens only “ ‘to the maximum extent feasible,’ ” the Memorandum “makes ‘abundantly clear’ its intent to exclude not some but all undocumented immigrants from the apportionment base,
and ‘unambiguously commands action’ to achieve that
goal.” Id. at 15a (citations omitted). The court also
faulted the government for failing to produce “any evidence” that the Secretary “cannot comply fully with the
Memorandum.” Id. at 18a. And relying on evidence
that the Bureau plans to provide the Secretary with the
number of “ ‘unlawful aliens in ICE Detention Centers’ ”
and “ ‘other’ ” unspecified information to implement the
Memorandum, the court concluded that the Secretary
plans “to provide the President with a number approximating the total number of undocumented immigrants
in each state.” Id. at 16a (citations omitted).
The district court also declined to postpone consideration of the case until after apportionment has been completed, holding that there were no prudential ripeness
concerns. App., infra, 18a-22a. The court concluded
that the question “whether the government has the lawful authority to * * * exclude the maximum possible
number of undocumented immigrants from the apportionment base * * * is ‘purely legal,’ and involves no
aspect that would ‘benefit from further factual development.’ ” Id. at 19a (citations omitted). While acknowledging that “it may be possible to remedy an apportionment harm after the fact,” the court found it “hard to
see why it would be desirable here,” because “[w]e know
now, before actual apportionment, who would be injured.” Id. at 21a.

8

b. Turning to the merits, the district court, like the
New York court, held that the “Memorandum deviates
from the governing federal statutes both by excluding
undocumented immigrants from the apportionment
base solely because of their legal status and by directing
the use of non-census data for apportionment.” App.,
infra, 22a-23a. Accordingly, the court below, “like the
New York court, decline[d] to reach the plaintiffs’ constitutional claims.” Id. at 23a.
“Like [the] New York” court, the district court concluded that, for purposes of the Census Act and Reapportionment Act, illegal aliens “are ‘inhabitants’ of the
states where they live as surely as they are ‘persons in’
those states.” App., infra, 24a. In the court’s view,
“[t]he ordinary meaning of an inhabitant is ‘one that occupies a particular place regularly, routinely, or for a
period of time,’ ” and that definition covers all “ ‘illegal
aliens who live in the United States.’ ” Id. at 25a (citations omitted). The court declined to “ ‘delve into the
meaning of the terms “inhabitant” and “usual residence” at the time of the Founding or of the Reconstruction Amendments,’ ” choosing instead to rely on
the 1929 Congress’s failure to enact “amendments that
would have excluded non-citizens” from the apportionment base. Id. at 26a & n.8 (quoting New York v.
Trump, No. 20-cv-5770, 2020 WL 5422959, at *30 n.17
(S.D.N.Y. Sept. 10, 2020)).
The district court further agreed with the “New York
court[]” that the “Memorandum violates a second statutory requirement: that the congressional apportionment be based on the results of the census and only the
results of the census.” App., infra, 29a. In the court’s
view, the Memorandum contravenes that requirement
because the second requested tabulation “will not be a

9

product of the census.” Id. at 30a. The court acknowledged that “the Census Bureau may use administrative
records and data as part of the actual enumeration,” but
concluded that the Memorandum “requires the administrative records be used to calculate a number other
than the actual census enumeration upon which apportionment will be based.” Id. at 32a n.9.
c. The district court granted appellees summary
judgment on their Census Act and Reapportionment
Act claims. App., infra, 33a, 37a. Finding the
permanent-injunction factors satisfied, id. at 33a-34a,
the court enjoined all defendants other than the President “from transmitting to the President any data or information on the number of undocumented immigrants
in each state to be used for reapportionment,” id. at 38a.
The injunction that the district court below entered
closely tracks the injunction entered by the district
court in New York, but expands on the scope of the latter injunction to prevent the transmission of such data
“intended for use in apportionment” “after the statutory deadline for the Section 141(b) report.” Id. at 35a.
And like the New York court, the court below entered a
declaratory judgment that the Memorandum is unlawful. Id. at 35a, 37a-38a.
REASONS FOR NOTING PROBABLE JURISDICTION

The district court held that Article III was satisfied
and, on the merits, held that the Memorandum violates
the statutory provisions governing congressional apportionment. For the reasons set forth in the government’s merits brief in this Court in Trump v. New York,
No. 20-366 (Oct. 30, 2020), the district court’s conclusions regarding Article III and the statutory claims are
incorrect. This Court is poised to resolve those same
questions on an expedited basis in New York, which is

10

scheduled for argument on November 30, 2020. Accordingly, the government respectfully requests that the
Court hold this jurisdictional statement pending its decision in New York and then dispose of it as appropriate
in light of that decision.
Although the district court here relied on an apportionment injury not relied upon by the New York district court to find that appellees had Article III standing, that theory of standing is fairly presented in New
York. The New York appellees have invoked that same
speculative injury as an alternative ground for supporting Article III jurisdiction there, and the government
has responded to that argument in its merits brief. See
Gov’t Br. at 18-21, New York, supra (No. 20-366); NY
Immigration Coal. Mot. to Dismiss or Affirm at 32-35,
New York, supra (No. 20-366); NY Mot. to Affirm at 1720, New York, supra (No. 20-366). Accordingly, there is
no need to grant plenary review of this parallel appeal
on an even more expedited basis, because the Court can
resolve that Article III argument in New York itself.

11
CONCLUSION

The Court should hold the jurisdictional statement
pending disposition of Trump v. New York, No. 20-366
(filed Sept. 22, 2020), and then dispose of it as appropriate in light of the Court’s decision in that case.
Respectfully submitted.
JEFFREY B. WALL
Acting Solicitor General
JEFFREY BOSSERT CLARK
Acting Assistant Attorney
General
HASHIM M. MOOPPAN
Counselor to the Solicitor
General
SOPAN JOSHI
Senior Counsel to the
Assistant Attorney General
NICOLE FRAZER REAVES
BRINTON LUCAS
Assistants to the Solicitor
General

NOVEMBER 2020

APPENDIX A
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND

No. 8:20-cv-02225-PX-PAH-ELH
NATALIA USECHE, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, ET AL., DEFENDANTS
Filed:

Nov. 6, 2020

MEMORANDUM OPINION

PER CURIAM.
Since the first census in 1790, every census and apportionment has accounted for the total persons in each
state, without respect to immigration status. And until
July 2020, no branch of the federal government ever had
taken the position that non-citizen residents of the
United States could lawfully be excluded, based on their
immigration status, from the apportionment base.
The Presidential Memorandum before us, issued on
July 21, 2020, upends that 230-year history. The Memorandum declares that it now “is the policy of the United
States to exclude” undocumented immigrants “from the
apportionment base . . . to the maximum extent feasible.” Excluding Illegal Aliens from the Apportionment Base Following the 2020 Census, 85 Fed. Reg.
44,679, 44,680 (July 23, 2020). To effectuate that pol(1a)

2a
icy, the Memorandum directs the Secretary of Commerce to provide the President with two sets of numbers: the customary count of all residents of each state,
according to the census; and a new and second count
from which undocumented immigrants have been subtracted, to be used for the apportionment of congressional seats. And even though the Memorandum leaves
to the Secretary how best to calculate the “maximum”
number of undocumented immigrants in each state, it
makes clear the purpose and expected result of this exercise. Some states with large immigrant populations
will lose congressional seats—the Memorandum goes so
far as to highlight California as one—and other states
will gain them.
We are the third three-judge district court to address
this Memorandum, and we substantially agree with our
colleagues. Like the court in City of San Jose v.
Trump, No. 20-CV-05167, 2020 WL 6253433 (N.D. Cal.
Oct. 22, 2020), we conclude that the claims before us are
justiciable given the substantial risk that states in which
several plaintiffs reside will lose congressional representation under the Memorandum. Similarly, as in City
of San Jose and New York v. Trump, No. 20-CV-5770,
2020 WL 5422959 (S.D.N.Y. Sept. 10, 2020), we find that
the Presidential Memorandum violates the statutes governing the census and apportionment in two respects:
by wholly excluding undocumented immigrants from the
total population count used to apportion congressional
seats; and by requiring the Secretary of Commerce to
provide the President with data collected outside the decennial census for use in apportionment. We therefore
enjoin all defendants, except for the President himself,

3a
from providing the President with information regarding the number of undocumented immigrants in each
state for purposes of reapportionment.
I.

We begin with a brief review of the relevant constitutional and statutory provisions, the Presidential Memorandum at the heart of this case, and the plaintiffs’ challenge to that Memorandum.
A.

The Constitution establishes the principle that congressional apportionment must be based on the “whole
number” of persons in each state, as determined by the
decennial census. Article I of the Constitution provides that an “actual Enumeration” of the population
shall be conducted every ten years “in such Manner as
[Congress] shall by Law direct,” so that congressional
representatives may be “apportioned among the several
States.” U.S. Const. art. I, § 2, cl. 3. The Fourteenth
Amendment next requires that “Representatives shall
be apportioned among the several States according to
their respective numbers, counting the whole number of
persons in each State, excluding Indians not taxed.”
Id. amend. XIV, § 2. The number of Representatives
apportioned to each state also determines that state’s
share of electors in the Electoral College. See id. art.
II, § 1, cl. 2.
Congress, pursuant to its authority to direct the
“Manner” of the census, has enshrined these principles
into law. The Census Act directs the Secretary of Commerce (the “Secretary”) to “take a decennial census
of population as of the first day of April.” 13 U.S.C.
§ 141(a). Section 141(b) of the Act then requires that

4a
the Secretary report to the President within nine months
of the census date “[t]he tabulation of total population
by States” as ascertained under the census and “as required for the apportionment of Representatives in Congress among the several States.” Id. § 141(b). Therefore, in his Section 141(b) report, the Secretary must
provide one number to the President—the tabulation of
the whole number of persons in each state obtained from
the decennial census. Id. The statute provides for no
other number to be transmitted.
Once the President receives that number, he must
“transmit to the Congress a statement showing the
whole number of persons in each State, excluding Indians not taxed, . . . and the number of Representatives to which each State would be entitled.” 2 U.S.C.
§ 2a(a). This number is used for reapportionment and
must be “ascertained under the . . . census of the
population.” Id. After the President has transmitted
the number, the Clerk of the House of Representatives
sends to the executive of each state the number of representatives to which his or her state is entitled. Id.
§ 2a(b).
The Census Bureau, under the authority delegated to
it by Congress, has also established final rules for the
2020 Census, including the rule for how and where individuals will be enumerated. See Final 2020 Census
Residence Criteria and Residence Situations, 83 Fed.
Reg. 5525 (Feb. 8, 2018) (the “Residence Rule”). Under the Residence Rule, the “specific location” at which
a person is counted for purposes of the census is determined by the “concept of ‘usual residence,’ which is defined by the Census Bureau as the place where a person
lives and sleeps most of the time.” Id. at 5526. “This

5a
concept of ‘usual residence’ is grounded in the law
providing for the first census, the Act of March 1, 1790,
expressly specifying that persons be enumerated at
their ‘usual place of abode.’ ” Id. (citation omitted).
The Residence Rule applies to citizens and noncitizens alike, regardless of their legal status. “Citizens of foreign countries living in the United States” are
“[c]ounted at the U.S. residence where they live and
sleep most of the time.” Id. at 5533. Although one
commenter “expressed concern” during the notice and
comment period “about the impact of including undocumented people in the population counts for redistricting
because these people cannot vote,” the Census Bureau
explained that it would “retain the proposed residence
situation guidance for foreign citizens in the United
States.” Id. at 5530. That means undocumented persons must be counted in the 2020 Census under the Residence Rule “if, at the time of the census, they are living
and sleeping most of the time at a residence in the
United States.” Id.
B.

The Residence Rule became final in February 2018,
and the Census Bureau began conducting the 2020 decennial census on January 21, 2020. See Important Dates,
U.S. Census Bureau, https://2020census.gov/en/importantdates.html (last visited Nov. 3, 2020). Exactly six
months into the census count, on July 21, 2020, the President issued a Presidential Memorandum titled “Excluding Illegal Aliens from the Apportionment Base Following the 2020 Census.” 85 Fed. Reg. 44,679 (July 23,
2020) (the “Presidential Memorandum” or “Memorandum”). The Presidential Memorandum declares that
“it is the policy of the United States to exclude from the

6a
apportionment base aliens who are not in a lawful immigration status . . . to the maximum extent feasible
and consistent with the discretion delegated to the executive branch.” Id. at 44,680. Under the Memorandum, the Secretary must first “take all appropriate action” in compiling his Section 141(b) report “to provide
information permitting the President, to the extent
practicable, to exercise the President’s discretion to
carry out the policy set forth in [the Memorandum].”
Id. Second, “[t]he Secretary shall also include in that
report information tabulated according to the methodology set forth in” the Residence Rule. Id.
As the government explains, this language “direct[s]
the Secretary to report two sets of numbers” to the
President. ECF No. 36 (“Defs.’ Opp’n”), at 38. One
is an “enumeration” of the population of each state tabulated according to the Residence Rule. Id. at 4. The
other consists of “ ‘information permitting the President, to the extent practicable,’ to carry out the stated
policy, i.e., an apportionment excluding illegal aliens,”
id. (citation omitted)—or, in short, a population tabulation from which undocumented immigrants, “to the maximum extent feasible,” have been excluded. See Presidential Memorandum, 85 Fed. Reg. at 44,680.
C.

On July 31, 2020, 11 individuals and two nongovernmental organizations brought this case against the government, naming as defendants President Donald J.
Trump, Secretary of Commerce Wilbur L. Ross, Jr.,

7a
Census Bureau Director Steven Dillingham, the Department of Commerce, and the Census Bureau. 1 In their
amended complaint, the plaintiffs contend that the Presidential Memorandum is unlawful because it violates (1)
the Fourteenth Amendment’s requirement that apportionment be based on the whole number of persons in
each state; (2) Article I’s requirement that the apportionment be based on an “actual Enumeration” taken
every ten years in the manner Congress directs; (3) the
relevant census- and apportionment-related statutes—
13 U.S.C. §§ 141, 195 and 2 U.S.C. § 2a; and (4) 5 U.S.C.
§ 706(2) of the Administrative Procedure Act. The
amended complaint also alleges that the Memorandum
discriminates against Hispanic communities and immigrant communities of color in violation of the Fifth
Amendment’s Due Process clause. As relief, plaintiffs
ask this Court to declare the Presidential Memorandum
unlawful, to issue writs of mandamus requiring the Secretary and the President to comply with federal law, and
to enjoin the defendants from excluding undocumented
immigrants from the apportionment base.
Although the amended complaint is far-reaching, we
consider today a more limited motion for partial summary judgment.
Summary judgment is warranted
when the court, viewing the evidence in the light most
favorable to the non-moving party, finds “no genuine
dispute as to any material fact and the movant is entitled
This case initially was assigned to Judge Xinis. On August 17,
2020, at the plaintiffs’ request and without objection from the government, Judge Xinis sought appointment of a three-judge district
court pursuant to 28 U.S.C. § 2284. See ECF Nos. 17, 21. On August 26, 2020, the Honorable Roger L. Gregory, Chief Judge of the
Fourth Circuit, added Judges Harris and Hollander to form this
three-judge court. See ECF No. 29.
1

8a
to judgment as a matter of law.” Fed. R. Civ. P. 56(a);
see also Celotex Corp. v. Catrett, 477 U.S. 317, 322
(1986); Emmett v. Johnson, 532 F.3d 291, 297 (4th Cir.
2008). “A party opposing a properly supported motion
for summary judgment ‘may not rest upon the mere allegations or denials of [his] pleadings,’ but rather must
‘set forth specific facts showing that there is a genuine
issue for trial.’ ” Bouchat v. Balt. Ravens Football
Club, Inc., 346 F.3d 514, 522 (4th Cir. 2003) (quoting former Fed. R. Civ. P. 56(e)). “A mere scintilla of proof
. . . will not suffice to prevent summary judgment.”
Peters v. Jenney, 327 F.3d 307, 314 (4th Cir. 2003).
The plaintiffs maintain that they are entitled to summary judgment as to two claims. First, they argue that
by excluding undocumented immigrants from the apportionment base, the Presidential Memorandum violates,
as a matter of law, the requirement set out in the Fourteenth Amendment, 13 U.S.C. § 141(b), and 2 U.S.C.
§ 2a that the “whole number of persons in each State” or
“total population by States” be used for apportionment.
See ECF No. 19-1 (“Pls.’ Mem.”), at 7-18. Second, they
argue that the Presidential Memorandum also violates
Article I, 13 U.S.C. § 141(b), and 2 U.S.C. § 2a(a) by requiring the use of non-census data in the Secretary’s
Section 141(b) report and for apportionment. Id. at
18-20. 2

Alternatively, the plaintiffs move for a preliminary injunction on
the ground that the Presidential Memorandum violates the equal
protection component of the Fifth Amendment because it is part of
a sustained campaign that began with an unsuccessful attempt to
add a citizenship question to the census and then continued by other
means to dilute the voting power of non-white and Hispanic communities. Pls.’ Mem. at 2035. In support, they point to the recently
2

9a
In support of standing, the plaintiffs argue that the
Presidential Memorandum creates a substantial risk
that they will suffer an apportionment harm because
certain states in which they reside will lose congressional seats. ECF No. 39 (“Pls.’ Reply”), at 5-6. According to the plaintiffs, this harm is to be expected; the
Presidential Memorandum is “expressly intended to reduce representation in states with large numbers of undocumented immigrants,” singling out California—
where some of the plaintiffs live—as a state that should
lose congressional seats under the new policy. Id.
The plaintiffs buttress their claim with the uncontested
expert report of economist Dr. Ruth Gilgenbach, showing that “under an exceptionally broad range of assumptions and accounting for significant statistical uncertainty,” California and also Texas—where other plaintiffs live—each are “virtually certain” to lose a congressional seat if the Presidential Memorandum’s policy is
implemented. Id. at 9-10. 3
disclosed study of Dr. Thomas Hofeller, who worked closely on census issues with a trusted advisor to the Secretary. The Hofeller
study concludes that removing undocumented immigrants from
the redistricting process would advantage “Republicans and NonHispanic Whites.” Kravitz v. U.S. Dep’t of Commerce, 382 F. Supp.
3d 393, 398-400 (D. Md. 2019) (citation omitted). Because we grant
summary judgment on other grounds, we need not consider the plaintiffs’ alternative request for a preliminary injunction. Declining to
reach the argument, however, in no way casts doubt on its validity.
3
Alternatively, plaintiffs contend that they have standing because
the Presidential Memorandum substantially risks voter dilution and
loss of federal funds and impairs the activities of the organizational
plaintiffs by deterring census participation. See Pls.’ Reply at
11-16. The plaintiffs in New York v. Trump, No. 20-CV-5770, 2020
WL 5422959, at *15-23 (S.D.N.Y. Sept. 10, 2020), successfully advanced this argument while the census count still was ongoing. But

10a
II.

We begin with the government’s contention that
plaintiffs lack standing and, relatedly, that their claims
are not ripe for adjudication. The government asserts
that it is not yet clear how the Memorandum will be implemented or even whether it will be implemented at all.
This is because, according to the government, “[t]he extent to which it will be feasible for the Census Bureau to
provide the Secretary of Commerce a second tabulation”
wholly excluding undocumented immigrants from the
apportionment base “is, at this point, unknown.” Defs.’
Opp’n at 7. Thus, says the government, any apportionment injury is too speculative to constitute the requisite
“injury in fact” for standing purposes. And because
“[a]nalyzing ripeness is similar to determining whether
a party has standing,” Miller v. Brown, 462 F.3d 312,
318-19 (4th Cir. 2006), the government argues that the
plaintiffs’ claims are not ripe for the same reasons.
We disagree. There may have been a time when
the government plausibly could argue that it was “not
known” whether any apportionment harm would befall
the plaintiffs, because “the Secretary ha[d] not yet determined how he w[ould] calculate the number of illegal
aliens in each State or even whether it [wa]s feasible to
do so at all.” New York, 2020 WL 5422959, at *15 (emphasis added); see also ECF No. 36-2 (“Abowd Decl.”)
¶ 15 (declaring, on September 1, 2020, that “the Census
Bureau is in the process of determining the appropriate
the Census Bureau’s counting operations ceased on the day after
oral argument in this case, see ECF No. 44, raising questions as to
the continued validity of this theory. We do not and need not rely
on it here, given that the plaintiffs before us have standing based on
their impending apportionment harms.

11a
methodologies” to comply with the Presidential Memorandum). But the record now before us documents the
Census Bureau’s concrete plans to implement fully the
Memorandum, and so the plaintiffs have shown the requisite “substantial risk,” see Susan B. Anthony List v.
Dreihaus, 573 U.S. 149, 158 (2014) (citation omitted),
that they will suffer the very apportionment harms the
Memorandum is intended to inflict. 4
We begin with the basics. So long as at least one
plaintiff in front of us has standing, then a justiciable
controversy exists. Dep’t of Commerce v. New York
(“Commerce v. New York”), 139 S. Ct. 2551, 2565 (2019).
Plaintiffs have standing if they “(1) suffered an injury in
fact, (2) that is fairly traceable to the challenged conduct
of the defendant, and (3) that is likely to be redressed by
a favorable judicial decision.” Spokeo, Inc. v. Robins,
136 S. Ct. 1540, 1547 (2016). The government challenges only the first prong, injury in fact.
An injury in fact is sufficient to confer Article III
standing when a plaintiff “has sustained or is immediately in danger of sustaining a direct injury.” Id. at
1552 (Thomas, J., concurring) (citation omitted).

In this respect, we do not confront the same record that was before the court in New York, which suggested, without deciding, that
an apportionment injury like the one alleged here was too speculative, in early September of 2020, to confer Article III standing. See
2020 WL 5422959, at *15. That same court indeed recognized that
as the Census Bureau and Department of Commerce continued census data collection and processing, the alleged apportionment injuries might “no longer be [too] speculative” to support Article III
jurisdiction. See Opinion and Order Denying Stay, New York, No.
20-CV-2770, at 11 n.8 (S.D.N.Y. Sept. 29, 2020). In our considered
judgment, that time has come.
4

12a
There is no dispute that a future injury, like the plaintiffs’ alleged apportionment harms, may suffice. As
the parties agree, so long as an alleged future injury is
“‘certainly impending’ or there is a ‘substantial risk’ that
the harm will occur,” then Article III standing is satisfied. See Susan B. Anthony List, 573 U.S. at 158 (quoting Clapper v. Amnesty Int’l USA, 568 U.S. 398, 414 n.5
(2013)); see also Defs.’ Opp’n at 10; Pls.’ Reply at 5. 5
Likewise, no genuine dispute exists that the “expected
loss of a Representative” through reapportionment “satisfies the injury-in-fact requirement of Article III standing.” Dep’t of Commerce v. U.S. House of Representatives (“Commerce v. House”), 525 U.S. 316, 331 (1999).
When a state “anticipate[s] losing a seat in Congress,”
that “diminishment of political representation” is a concrete injury suffered by both the state itself, see Commerce v. New York, 139 S. Ct. at 2565, and its citizens,
see Commerce v. House, 525 U.S. at 331-32.

Clapper v. Amnesty International USA, 568 U.S. 398, 414 n.5
(2013), suggests in a footnote that, at least in some cases, it may be
appropriate to focus exclusively on the “certainly impending” formulation. Since Clapper, however, the Supreme Court has continued
to apply the disjunctive standard embraced by both parties here,
asking whether there is either a “substantial risk” of injury or a “certainly impending” injury. See Commerce v. New York, 139 S. Ct. at
2565; Susan B. Anthony List, 573 U.S. at 158. And this case involves none of the “foreign affairs” concerns that counseled in favor
of emphasizing the “certainly impending” standard in Clapper. See
568 U.S. at 409. Equally important, as in Clapper, id. at 414 n.5,
the precise terminology makes no difference. However the inquiry
is framed, the plaintiffs’ alleged apportionment harms are not so “conjectural or hypothetical” that they fail to confer Article III standing.
See Lujan v. Defs. of Wildlife, 504 U.S. 555, 560 (1992) (citation and
internal quotation marks omitted).
5

13a
Squarely before us is whether implementing the
Presidential Memorandum creates a “substantial risk”
that states in which at least some of the individual plaintiffs reside will lose congressional seats if undocumented immigrants are excluded from the apportionment base. Reviewing the record in the light most favorable to the government, see Penley v. McDowell
Cnty. Bd. of Educ., 876 F.3d 646, 650 (4th Cir. 2017), the
plaintiffs have met their burden of establishing that substantial risk. See Commerce v. House, 525 U.S. at 330;
City of San Jose, 2020 WL 6253433, at *22.
The government does not materially contest that
once implemented, the Memorandum’s policy of excluding undocumented immigrants from the apportionment
base to the “maximum extent feasible,” see Presidential
Memorandum, 85 Fed. Reg. at 44,680, almost certainly
will cause both California and Texas—states in which
multiple plaintiffs reside—to lose congressional seats in
the upcoming apportionment. See ECF No. 19-7 (“Gilgenbach Decl.”) at 12-13 ¶¶ 22-23; see also ECF No. 19-3
(“Kang Decl.”), at 1 ¶¶ 3-4; ECF No. 19-3 (“Dodani
Decl.”), at 4 ¶¶ 3-4; ECF No. 19-3 (“Lira Decl.”), at 7
¶¶ 3-6; ECF No. 19-3 (“Ulloa Decl.”), at 9 ¶¶ 3-4. This
is true no matter the precise methodology used by the
Secretary or the exact number he provides the President. Even under a wide range of assumptions and accounting for statistical uncertainty, California and Texas
are “highly likely to lose a congressional seat if undocumented immigrants [are] removed from congressional
apportionment calculations.” Gilgenbach Decl. ¶ 23;
see also id. ¶¶ 9-39. And of course, that is to be expected. The Presidential Memorandum announced expressly that its goal is to reduce representation in states
with significant numbers of undocumented immigrants.

14a
See Presidential Memorandum, 85 Fed. Reg. at 44,680
(explaining that states with large numbers of undocumented immigrants should not be “rewarded with
greater representation in the House of Representatives”). Indeed, as the government clarified at oral argument, the unnamed state singled out by the Memorandum that is likely to lose two or three congressional
seats as a result of the Memorandum is California, ECF
No. 47 (“Oral Arg. Tr.”), at 24, in which several plaintiffs
live.
None of this is genuinely disputed. The government
does not argue that there is no “substantial risk” that, if
implemented, the Memorandum would produce the intended apportionment harms. Instead, the government stakes its argument on a different proposition:
that there is no “substantial risk” that the Memorandum
actually will be implemented, or at least fully enough
implemented to bring about the desired shift of congressional seats. In support of this argument, the government highlights that the Memorandum calls for the exclusion of undocumented immigrants only to the extent
“feasible” or “practicable,” see 85 Fed. Reg. at 44,680,
and perhaps it will not prove “feasible” to identify all or
even any undocumented immigrants for subtraction
from the apportionment base. Defs.’ Opp’n at 8. Or
maybe, the government suggests, it will be “practicable”
to identify only some “hypothetical smaller” subset of
undocumented immigrants whose exclusion might not
suffice to cost California or Texas a congressional seat.
Id. at 44. In short, the government argues, whether
the Presidential Memorandum will be implemented as
intended remains so “conjectural [and] hypothetical”
that the plaintiffs cannot show a “substantial risk” of injury. Id. at 10 (citations omitted).

15a
Like the court in City of San Jose, see 2020 WL
6253433, at *17-20, we disagree. On its face, the Memorandum makes “abundantly clear” its intent to exclude
not some but all undocumented immigrants from the apportionment base, and “unambiguously commands action” to achieve that goal. Id. at *18 (internal quotation
marks omitted). The Memorandum plainly states that
“it is the policy of the United States to exclude” undocumented immigrants from the apportionment base “to
the maximum extent feasible.” Presidential Memorandum, 85 Fed. Reg. at 44,680. And if there were any
doubt that what is contemplated is to exclude all undocumented immigrants from the apportionment count, the
Memorandum dispels it by explicitly referencing the
“more than 2.2 million illegal aliens” living in California,
id., an estimate of the total number of undocumented
immigrants in that state. 6 Given the Memorandum’s
plain text and stated purpose, the “presumption of regularity” that attaches to agency action means that we
presume, in the absence of contrary evidence, that the
Secretary and Census Bureau will take the steps necessary to exclude not some but all undocumented immigrants from the apportionment base. See United States
v. Chem. Found., Inc., 272 U.S. 1, 14-15 (1926); see also
U.S. Postal Serv. v. Gregory, 534 U.S. 1, 10 (2001).
At oral argument in mid-October, the government
took the position that notwithstanding the rapidly ap-

Unauthorized immigrant population trends for states, birth countries and regions, Pew Rsch. Ctr. (June 12, 2019), https://www.
pewresearch.org/hispanic/interactives/unauthorized-trends/ (estimating 2.2 million undocumented immigrants resided in California
in 2016).
6

16a
proaching end-of-year deadline for the Secretary’s report, agency planning under the Memorandum remained
so preliminary and “dynamic” that it was impossible to
say what the Secretary might be able to produce. Oral
Arg. Tr. 8-10. But the supplemented record in this
case, based on the government’s own sworn declarations
and filings in parallel litigation, is replete with evidence
of concrete plans to provide the President with a number
approximating the total number of undocumented immigrants in each state. Specifically, the Census Bureau
will start by providing the Secretary, by December 31,
2020, with the number of all “unlawful aliens in ICE Detention Centers.” Decl. of Albert E. Fontenot, Jr. ¶ 8,
La Unión Del Pueblo Entero v. Trump, No. 8:19-cv2710 (D. Md. Oct. 2, 2020), ECF No. 126-1. Next, the
Bureau, by January 11, 2021, will “provide the Secretary
with other Presidential Memorandum-related outputs.”
Id. Critically, these “outputs” will be submitted as “necessary to fully implement the Presidential Memorandum.” See Decl. of Albert E. Fontenot, Jr. ¶ 26, Nat’l
Urb. League v. Ross, No. 5:20-cv-05799 (N.D. Cal. Oct.
1, 2020), ECF No. 284-1 (emphasis added).
This is not some inchoate plan, so vague that it presents no “substantial risk” of coming to fruition. As
discussed, the Bureau has provided exact dates for the
provision of information. See Fontenot Decl. ¶ 8, La
Unión Del Pueblo Entero, No. 8:19-cv-2710, ECF No.
126-1. And the Bureau is certain enough of exactly
what will be entailed in the collection of that information
that it can quantify—to the day—how long such collection will take. Postponing the provision of additional
“Memorandum-related outputs” until January of 2021,
the Census Bureau has attested, will save it precisely
five days of work in December, which it now can devote

17a
to “post-data collection processing” for the 2020 Census.
Id. ¶ 4. The meticulousness of the agency’s calculations belies any suggestion that the Bureau has yet to
determine whether and how it will transmit to the Secretary the data necessary to “fully implement” the Presidential Memorandum. Fontenot Decl. ¶ 26, Nat’l Urb.
League, No. 5:20-cv-05799, ECF No. 284-1.
The government has offered no counterweight to this
evidence. It has provided no reason why it would not
be feasible for the Bureau and the Secretary to tabulate
the total number of undocumented immigrants in each
state. See City of San Jose, 2020 WL 6253433, at *1920. Nor is one readily apparent. As of July 2019, the
Census Bureau possessed records that would allow it to
identify the citizenship status of 90 percent of the
United States population. See Exec. Order No. 13,880,
84 Fed. Reg. 33,821, 33,821 (July 16, 2019). The President also issued an Executive Order on “Collecting Information About Citizenship Status in Connection with
the Decennial Census,” in which he instructed agencies
to share with the Department of Commerce—in time for
use in conjunction with the 2020 Census—any additional
records that would identify citizenship status so as to
“generate a more reliable count of the unauthorized alien population in the country.” Id. at 33,823; see also
id. at 33,824. And since then, the Bureau has made significant progress toward implementing the Presidential
Memorandum, obtaining additional administrative records that will allow it, in the government’s words, to “ascertain the illegal alien population.” See City of San
Jose, 2020 WL 6253433, at *19-20 (quoting defendants’
statement at court hearing).

18a
Simply stated, the plaintiffs have shown the requisite
“substantial risk” that the Presidential Memorandum
will be implemented as intended, causing the intended
apportionment harms. If any evidence exists that the
Census Bureau or Secretary will not or cannot comply
fully with the Memorandum, the government has yet to
share such evidence with us. See id. at *20 n.11. Any
speculative and theoretical possibility that the agency
may fall short in its efforts to carry out the Memorandum’s announced policy does not negate the plaintiffs’
showing of “substantial risk” sufficient to confer standing. See id. at *17-20.
We next turn to ripeness. Because both standing
and ripeness flow from Article III’s case or controversy
requirement, see South Carolina v. United States, 912
F.3d 720, 730 (4th Cir. 2019), “[a]nalyzing ripeness is
similar to determining whether a party has standing” in
that it “prevents judicial consideration of issues until a
controversy is presented in ‘clean-cut and concrete
form,’ ” Miller, 462 F.3d at 318-19 (quoting Rescue Army
v. Mun. Ct. of L.A., 331 U.S. 549, 584 (1947)). The “basic
rationale” of the ripeness doctrine “is to prevent the
courts, through avoidance of premature adjudication,
from entangling themselves in abstract disagreements
over administrative policies.” Abbott Lab’ys v. Gardner, 387 U.S. 136, 148 (1967), abrogated on other grounds
by Califano v. Sanders, 430 U.S. 99, 105 (1977). For
reasons similar to those previously discussed, the plaintiffs face a substantial risk of a direct and imminent apportionment injury, and thus their claims are ripe for
adjudication.
In urging us to find the claims unfit for adjudication,
the government puts forward the same who-knows-

19a
what-will-happen argument, and we likewise reject it
here. The Bureau and Secretary soon will “fully implement” the Presidential Memorandum, see Fontenot
Decl. ¶ 26, Nat’l Urb. League, No. 5:20-cv-05799, ECF
No. 284-1, causing the plaintiffs an actual and imminent
apportionment harm. The only question presented is
whether the government has the lawful authority to do
what it has repeatedly reaffirmed it will: exclude the
maximum possible number of undocumented immigrants
from the apportionment base. That question is “purely
legal,” Miller, 462 F.3d at 319, and involves no aspect
that would “benefit from further factual development.”
See Ohio Forestry Ass’n v. Sierra Club, 523 U.S. 726,
733 (1998). Of course it is true, as the government
points out, that “[w]here an injury is contingent upon a
decision to be made by a third party that has not yet
acted, it is not ripe.” Doe v. Va. Dep’t of State Police,
713 F.3d 745, 758 (4th Cir. 2013). But the government
is not a third-party actor. And it plainly has acted
here, taking numerous concrete steps to fully implement
the Memorandum’s policy of maximum exclusion.
The government nonetheless urges us to defer review to avoid “improperly interfer[ing] with the Census
Bureau’s ongoing efforts to determine how to respond
to the Presidential Memorandum” and “imped[ing] the
apportionment.” Defs.’ Opp’n at 8. But it has put forward no reasonable argument that hearing this case now
will disturb the 2020 Census. In fact, the government
has stressed repeatedly that the Presidential Memorandum is concerned with apportionment only and has no
impact on the census or census procedures. See id. at
11; ECF No. 36-1 (“Fontenot Decl.”) ¶ 13.

20a
Nor will judicial review interfere with ongoing agency
action. The Census Bureau can go forward with its
count of undocumented immigrants while we resolve the
“clean-cut and concrete” questions presented, Miller,
462 F.3d at 319 (citation omitted), and, if warranted, enjoin the Secretary from providing the President with the
results. Cf. New York, 2020 WL 5422959, at *35 (allowing agency to “continu[e] to study whether and how it
would be feasible to calculate the number of illegal aliens in each State” while enjoining transmittal of data to
the President). And the government’s argument that
judicial review will impede the apportionment process
only stands if it succeeds on the merits: If the government cannot exclude undocumented immigrants from
the apportionment base as a matter of law, then judicial
review only “imped[es]” the government from violating
federal law or the Constitution. See City of San Jose,
2020 WL 6253433, at *23. The plaintiffs’ claims are
thus “fit for judicial review” and ripe under Article III.
South Carolina, 912 F.3d at 730.
The government, however, has a fallback argument.
Even if we could hear this case now, it suggests that we
wait because “census and apportionment cases generally are decided post-apportionment,” and following that
practice here would cause the plaintiffs no harm. Defs.’
Opp’n at 9. But we need not consider whether waiting
visits appreciably more or less harm to the plaintiffs.
Their claims are plainly fit for review now, with no risk
that adjudication will interfere with agency efforts and
no need for further factual development, and so there is
nothing against which to balance any costs of delay.
See South Carolina, 912 F.3d at 730; City of San Jose,
2020 WL 6253433, at *24; see also Miller, 462 F.3d at

21a
319 (courts should balance the fitness of issues for decision against the hardship to parties in waiting when they
are in conflict). And while it may be possible to remedy
an apportionment harm after the fact, see Utah v. Evans, 536 U.S. 452, 459 (2002), it is not required, see Commerce v. House, 525 U.S. at 328-34 (considering preapportionment challenge), and it is hard to see why it
would be desirable here.
This is not a situation where plaintiffs chose to raise
claims post-apportionment, once the nature of the claims
and consequent injuries became clear. See City of San
Jose, 2020 WL 6253433, at *22 & n.13 (discussing cases);
cf. Utah, 536 U.S. at 458. We know now, before actual
apportionment, who would be injured were the Presidential Memorandum implemented—California and
Texas, at a minimum, along with their residents, see
Gilgenbach Decl. ¶ 23—so there is no need to wait.
And as the government itself has stressed in parallel litigation, “a post-apportionment remedy, while available,
would undermine the point of the deadlines established
by Congress, which is to provide prompt notice to the
Nation about the new apportionment that will govern
the next congressional elections.” Motion for Expedited Consideration of the Jurisdictional Statement at 6,
Trump v. New York, No. 20-366 (U.S. Sept. 22, 2020);
see also Defs.’ Opp’n at 9 (asserting tabulations “called
for by the Memorandum must be reported by no later
than the end of this year”). A post-apportionment
remedy also runs the risk of frustrating the efforts of
states to complete their own redistricting on schedule.
See Commerce v. House, 525 U.S. at 333-34; City of San
Jose, 2020 WL 6253433, at *24. And it needlessly would
introduce certain complexities regarding the fashioning
of relief: Once the Secretary delivers his tabulation of

22a
undocumented immigrants to the President, the most
obvious remedy would be an injunction not against the
Secretary—whose primary role in apportionment would
have ended—but against the President, an “extraordinary” form of relief, see Franklin v. Massachusetts, 505
U.S. 788, 802 (1992), that courts normally should avoid
where possible. See New York, 2020 WL 5422959, at
*34 (citing Nixon v. Sirica, 487 F.2d 700, 709 (D.C. Cir.
1973) (en banc)).
In light of these considerations, we cannot agree with
the government that the circumstances here counsel
against the exercise of jurisdiction. No good reason
exists to postpone consideration of the legal questions
presented by the Presidential Memorandum, where
waiting to grant relief would mean undoing an apportionment already completed. A “federal court’s obligation to hear and decide cases within its jurisdiction is
virtually unflagging,” see Lexmark Int’l, Inc. v. Static
Control Components, Inc., 572 U.S. 118, 126 (2014) (citation and internal quotation marks omitted), and so we
turn next to the merits of the plaintiffs’ partial summary
judgment motion.
III.

Two three-judge panels already have thoroughly canvassed the merits of the plaintiffs’ claims. Both held
that the Presidential Memorandum is unlawful. See
City of San Jose, 2020 WL 6253433, at *25-26; New
York, 2020 WL 5422959, at *2, *25-32. We agree with
both decisions and incorporate their detailed reasoning
to the extent the issues are presented identically here.
Like both City of San Jose and New York, we conclude that the Presidential Memorandum deviates from

23a
the governing federal statutes both by excluding undocumented immigrants from the apportionment base solely because of their legal status and by directing the use
of non-census data for apportionment. Because of
these clear statutory violations, we, like the New York
court, decline to reach the plaintiffs’ constitutional claims.
See New York, 2020 WL 5422959, at *25 (citing Ashwander v. Tenn. Valley Auth., 297 U.S. 288, 347 (1936)
(Brandeis, J., concurring)). We of course agree with
City of San Jose that the relevant constitutional provisions and history inform the meaning of the statutes, see
2020 WL 6253433, at *25, and our decision to rest on
statutory grounds alone in no way calls into question
that court’s constitutional holding.
A.

We start with the straightforward statutory scheme
governing who must be included in the apportionment
base. Section 141(b) requires that the Secretary report
to the President “[t]he tabulation of total population by
States . . . as required for the apportionment of
Representatives in Congress.” 13 U.S.C. § 141(b).
Section 2a then mandates that the President use that
tabulation for apportionment: The President must
transmit to Congress “the whole number of persons in
each State . . . as ascertained under the . . . decennial census” and use that number to apportion congressional seats. 2 U.S.C. § 2a(a).
The government, appropriately, does not dispute that
undocumented immigrants are “persons” under the
meaning of Section 2a. Cf. Plyler v. Doe, 457 U.S. 202,
210 (1982) (holding that “persons” under the Fourteenth
Amendment includes all persons regardless of their
“status under the immigration laws”). Nor does it

24a
spend much time focusing on the modifier “in,” Defs.’
Opp’n at 22, 37-38: Based on the ordinary meaning of
“in,” as well as accepted canons of statutory interpretation, the phrase “persons in each state” cannot reasonably be read to exclude “undocumented immigrants living
in each state.” See City of San Jose, 2020 WL 6253433,
at *43.
Instead, the government pins its hope for success on
the Supreme Court’s use and treatment of the term “inhabitant” in connection with the census and apportionment. See Franklin, 505 U.S. at 803-05 (noting that,
since the first census in 1790, Congress and the Census
Bureau counted persons as “in” each state if the state
was their “usual residence” or if they were an “inhabitant” of the state (citations omitted)); Wesberry v. Sanders, 376 U.S. 1, 13 (1964) (apportionment is determined
by “the number of the State’s inhabitants”).
From this, the government derives the principle that
“the whole number of persons in each State,” 2 U.S.C.
§ 2a(a), means the whole number of inhabitants of each
state, and that Congress has vested the Executive with
significant discretion to decide who qualifies as an “inhabitant” of a state. See Defs.’ Opp’n at 22-23, 37-40.
Like New York and City of San Jose, we disagree
with the government’s contentions. We may assume
that the government’s premise is correct, and “persons
in each state” means only “inhabitants,” or perhaps “usual
residents.” But that makes no difference because undocumented immigrants are “inhabitants” of the states
where they live as surely as they are “persons in” those
states.

25a
The ordinary meaning of an inhabitant is “one that
occupies a particular place regularly, routinely, or for
a period of time.” Inhabitant, Merriam-Webster Dictionary, https://www.merriam-webster.com/dictionary/
inhabitant. “[H]owever ambiguous the term may be on
the margins, it surely encompasses illegal aliens who
live in the United States—as millions of illegal aliens indisputably do, some for many years or even decades.”
New York, 2020 WL 5422959, at *29. Indeed, a “clear
majority of undocumented immigrants have lived in the
United States for over five years and have families, hold
jobs, own houses, and are part of their community.”
ECF No. 19-6 (“Barreto Decl.”) ¶ 17. Put simply, a
person’s immigration status is irrelevant to the state
which she regularly occupies or to her “usual residence.”
See City of San Jose, 2020 WL 6253433, at *43-45; New
York, 2020 WL 5422959, at *29. 7
The historical context in which Section 2a was passed
and subsequent historical practice confirm this common-sense conclusion. In 1929, when Congress first
provided that the apportionment base is the total of the
In the alternative, the government argues that some undocumented immigrants—for instance, those in immigration detention—
would not fall within the normal definition of “inhabitant” and could
be excluded from the apportionment. But if this were so, it would
be because of a construction of the Residence Rule, and not the immigrants’ legal status as undocumented persons. In any event, we
are not called upon to decide whether a narrow subset of undocumented immigrants may be excluded from the apportionment base.
As we have explained, the Presidential Memorandum’s plain terms
and evident purpose contemplate wholesale exclusion of undocumented immigrants, not some targeted refinement of the Census
Bureau’s Residence Rule. See New York, 2020 WL 5422959, at *29
n.16.
7

26a
“whole number of persons in each State,” see Act of June
18, 1929, Pub. L. No. 71-13 § 22, 46 Stat. 21, 26, the Senate and House voted down amendments that would have
excluded non-citizens.
See New York, 2020 WL
5422959, at *30-31 & n.17. The Senate even put aside
the argument, as true but irrelevant, that the bill would
include in the apportionment base several million noncitizens who had entered unlawfully “without the consent of the American people.” 71 Cong. Rec. 1919 (1929)
(statement of Sen. Heflin). And since that bill became
law, no branch of the federal government ever has taken
the position—prior to the Presidential Memorandum—
that the Executive’s discretion to define “the whole
number of persons in each State” includes the discretion
to exclude undocumented immigrants. See New York,
2020 WL 5422959, at *32. Quite the opposite, Congress
repeatedly has rejected bills to exclude non-citizens
from the apportionment base. See H.R. Rep. No. 761787, at 1 (1940); 1980 Census: Counting Illegal Aliens: Hearing Before the S. Subcomm. on Energy, Nuclear Proliferation & Fed. Servs. of the Comm. on Governmental Affs., 96th Cong. 10 (1980). And the Executive Branch always has taken the view, until now, that
the 1929 Act, if not the Constitution, prohibits excluding
undocumented immigrants from the apportionment
based on legal status alone. New York, 2020 WL
5422959, at *31-32. 8
Because it is clear that “persons in each State” included undocumented immigrants when Section 2a’s predecessor was enacted in
1929, we need not look to the meaning of the term at the Founding
nor at the time of the Fourteenth Amendment. See New York, 2020
WL 5422959, at *30 n.17 (“For this reason, we need not and do not
delve into the meaning of the terms ‘inhabitant’ and ‘usual residence’
at the time of the Founding or of the Reconstruction Amendments,
8

27a
Against this unbroken history, the government
points us to past occasions—recited by the Presidential
Memorandum—in which “aliens who are only temporarily in the United States” and “certain foreign diplomatic
personnel” have been excluded from the apportionment
base.
Presidential Memorandum, 85 Fed. Reg. at
44,679. But under the Census Bureau’s Residence
Rule and irrespective of the Presidential Memorandum,
persons visiting the United States or certain diplomatic
personnel would be excluded from the apportionment
base because they are not usual residents of any state.
The opposite is true for many undocumented immigrants living in the United States who indisputably are
usual residents with deep ties to their states. See City
of San Jose, 2020 WL 6253433, at *29. Nor, contrary
to the government’s position, is this common-sense conclusion disturbed by the fact that undocumented immigrants “have not legally entered and as a matter of law
may be removed from the country at any time.” Defs.’
Opp’n at 36. To state the obvious, a person “living in a
State but facing future removal is no less a ‘person[] in
that State’ than someone living in the State without the
prospect of removal.” New York, 2020 WL 5422959, at
or consider whether the concept of unlawful status was known to the
Framers of Article I or the Fourteenth Amendment. There is no
dispute that the concept of ‘illegal aliens’ existed in 1929, when Section 2a was enacted.”). In any event, the government’s citation to
Chief Justice Marshall’s partial concurrence and partial dissent in
The Venus, 12 U.S. (8 Cranch) 253, 289 (1814), dealing with war
prizes—which itself cites the theorist Emmerich de Vattel’s 1760
definition of “inhabitants” as “strangers who are permitted to settle and
stay in the country”—does nothing to disturb the long-understood
meaning that an inhabitant for purposes of the census is defined by
his or her usual residence, not immigration status. See Defs.’ Opp’n
at 29, 35.

28a
*30 (alteration in original) (citation omitted); see also
City of San Jose, 2020 WL 6253433, at *45.
For that reason, the government’s heavy reliance on
Kaplan v. Tod, 267 U.S. 228 (1925) is misplaced. There,
a non-citizen minor had been denied access to the United
States in 1914 but was paroled in the country to wait out
the First World War. See id. at 230. The Court held
the minor had not “bec[o]me a citizen” during that time
because she was not “dwelling within the United States.”
Id. To be sure, as Kaplan suggests, immigration status
is relevant to citizenship status. But Kaplan says
nothing about whether a person is an “inhabitant” for
purposes of the census when residing on American soil.
If anything, Kaplan cuts against the government—the minor in Kaplan actually was included in the 1920 census
while paroled. See Decl. of Jennifer Mendelsohn ¶ 3,
New York, No. 20-CV-5770 (S.D.N.Y. Aug. 25, 2020),
ECF No. 149-2.
“With neither text nor history on [its] side,” New
York, 2020 WL 5422959, at *32, the government is left
to argue that excluding undocumented immigrants from
apportionment is “more consonant with the principles of
representative democracy underpinning our system of
Government.”
Presidential Memorandum, 85 Fed.
Reg. at 44,680. That is contested, at a minimum; as the
Supreme Court has explained, the congressional seats
apportioned under 2 U.S.C. § 2a(a) “serve all residents,
not just those eligible or registered to vote.” See Evenwel v. Abbott, 136 S. Ct. 1120, 1132 (2016). But whatever the merits of the Memorandum’s theory of representative democracy, Congress adopted a different one
when it directed that apportionment be based on the
“whole number of persons in each State.” 2 U.S.C.

29a
§ 2a(a). Because the Memorandum deviates from that
command, it is unlawful.
B.

Like the City of San Jose and New York courts, we
also conclude that the Presidential Memorandum violates a second statutory requirement: that the congressional apportionment be based on the results of the
census and only the results of the census. See City of
San Jose, 2020 WL 6253433, at *45-46; New York, 2020
WL 5422959, at *25-29.
The statutory command is clear. Section 141(b) requires the Secretary to report to the President one set
of numbers: “[t]he tabulation of total population by
States under subsection (a) of this section”—that is, as
counted under the decennial census—“as required for
the apportionment of Representatives in Congress.”
13 U.S.C. § 141(b); see also id. § 141(a) (providing for the
taking of the decennial census). Section 2a also requires the President to “transmit to the Congress a statement showing the whole number of persons in each State,
excluding Indians not taxed, as ascertained under the
. . . decennial census of the population, and the number of Representatives to which each State would be entitled.” 2 U.S.C. § 2a(a) (emphasis added). In short,
and as neither party disputes, Section 2a “expressly require[s] the President to use . . . the data from the
‘decennial census’ ” for apportionment. See Franklin,
505 U.S. at 797.
As the court in New York explained at length, this is
not some empty formality. Congress intended to create a “virtually self-executing” apportionment scheme,
see id at 792, under which the President would be left

30a
without “discretionary power” to choose his own numbers for purposes of apportionment, and would instead
be required to use the numbers collected and reported
by the census. See New York, 2020 WL 5422959, at *26
(internal quotation marks omitted); see also Franklin,
505 U.S. at 799 (once the President is provided with the
final decennial census data, the apportionment calculation is “admittedly ministerial”). And until now, the
Department of Justice has acknowledged as much, consistently taking the position that the “President’s statement to Congress regarding apportionment has to be
based solely on the tabulation of total population produced by the census.”
See New York, 2020 WL
5422959, at *26.
The Presidential Memorandum flouts this statutory
requirement. Under the Memorandum, the Secretary
is directed to give the President one set of numbers derived from the census and tabulated according to the
Census Bureau’s Residence Rule, which does not take
account of citizenship status. See Presidential Memorandum, 85 Fed. Reg. at 44,680. But now the Secretary
must also provide a “second” number as well: “the population of each State ‘exclud[ing]’ illegal aliens.” See
New York, 2020 WL 5422959, at *27 (alteration in original) (citation omitted). And wherever that second number comes from—a matter over which the Secretary is
given discretion—it will not be a product of the census.
The Memorandum in this respect is clear. It contemplates two separate tabulations, one derived from the
census and one not. Id.; see Presidential Memorandum, 85 Fed. Reg. at 44,680; Defs.’ Opp’n at 4 (describing “two tabulations” to be provided by the Secretary).
Because the Memorandum would have the President
base apportionment on the second number, in order to

31a
exclude undocumented immigrants counted by the first,
see Presidential Memorandum, 85 Fed. Reg. at 44,680,
it is unlawful.
The government does not dispute that the President
must base the apportionment on numbers derived from
the decennial census. Instead, it argues that the President has the “authority to direct the Secretary in making policy judgments that result in ‘the decennial census,’ ” which allowed the President in Franklin to order
the counting of overseas federal employees as part of
the census. See Franklin, 505 U.S. at 799-800, 806. It
follows, the government contends, that the President
here can choose to adopt the second set of numbers provided by the Secretary—a tabulation from which undocumented immigrants have been subtracted—as the “decennial census” upon which he will rely for apportionment.
We disagree. This case is not about the extent of
the President’s discretion to order the exclusion of a
class of people from the census, because that is not what
the Presidential Memorandum does. See Opinion and
Order Denying Stay at 6-7, New York, No. 20-CV-2770.
The Memorandum does not direct that undocumented
immigrants be subtracted from the census count. Instead, the Memorandum carefully specifies that undocumented immigrants are to be excluded from the “apportionment base,” as distinct from the census itself.
See, e.g., Presidential Memorandum, 85 Fed. Reg. at
44,679 (“Excluding Illegal Aliens from the Apportionment Base Following the 2020 Census” (emphasis
added)); id. (“Although the Constitution requires the
‘persons of each State, excluding Indians not taxed,’ to
be enumerated in the census, that requirement has

32a
never been understood to include in the apportionment
base every individual physically present within a State’s
boundaries. . . . ” (emphases added)). The government’s consistent litigating position echoes this directive, emphasizing that the “Presidential Memorandum does not purport to change the conduct of the census itself.” See Defs.’ Opp’n at 11; Fontenot Decl. ¶ 13
(“The Presidential Memorandum . . . has had no
impact on the design of field operations for [the] decennial census, or on the Census Bureau’s commitment to
count each person in their usual place of residence, as
defined in the Residence Criteria.”).
The Presidential Memorandum in this regard does
not implicate the President’s authority to oversee
the conduct of the census, as articulated in Franklin.
Rather, the Memorandum separates the final census
tabulation—to be delivered to the President unaffected
by anything in the Memorandum—from the second set
of non-census numbers also to be delivered and on which
the President will base the apportionment. Nothing in
Franklin “suggest[s], let alone hold[s], that the President has authority to use something other than the census when calculating the reapportionment.”
New
York, 2020 WL 5422959, at *28. Nor does Franklin
permit the Secretary to transmit a number other than
the total population as derived by the census in his Section 141(b) report. But that is precisely what the Presidential Memorandum directs, and for that reason, it violates Section 141(b) and Section 2a. 9
It is true but beside the point that the Census Bureau may use
administrative records and data as part of the actual enumeration.
See Defs.’ Opp’n at 3940; see also Utah, 536 U.S. at 457; Franklin,
505 U.S. at 79496, 80306. We do not conclude that the Presidential
9

33a
IV.

For the foregoing reasons, we grant summary judgment to the plaintiffs on the statutory claims under 2
U.S.C. § 2a and 13 U.S.C. § 141. We must therefore
assess whether the plaintiffs are entitled to the permanent injunction and declaratory relief they seek.
To warrant a permanent injunction, the plaintiffs
must show (1) that they otherwise will suffer an irreparable injury; (2) that remedies available at law, such as
monetary damages, are inadequate to compensate for
their injury; (3) that, considering the balance of hardships between them and the government, a remedy in
equity is warranted; and (4) that the public interest
would not be disserved by a permanent injunction. See
eBay Inc. v. MercExchange, L.L.C., 547 U.S. 388, 391
(2006); SAS Inst., Inc. v. World Programming Ltd., 874
F.3d 370, 38586 (4th Cir. 2017). Where, as here, “the
Government is the opposing party,” the balance of the
hardships and public interest merge together. Nken v.
Holder, 556 U.S. 418, 435 (2009); see also Roe v. Dep’t of
Def., 947 F.3d 207, 230 (4th Cir. 2020).
The plaintiffs easily meet this standard. Their apportionment harm would “irreparably dilute[] voting
power and the allocation of political representation” in a
way that cannot be remedied by monetary damages.
City of San Jose, 2020 WL 6253433, at *50. And the
plaintiffs would suffer those irreparable injuries in, at
the very least, every congressional and presidential
Memorandum is ultra vires because it requires the use of administrative records. It is ultra vires because it requires the administrative records be used to calculate a number other than the actual
census enumeration upon which apportionment will be based.

34a
election until the next reapportionment following the
next decennial census.
See New York, 2020 WL
5422959, at *33.
The balance of hardships and the public interest also
favor granting a permanent injunction. The public interest is served by a valid reapportionment and is harmed
when the government acts contrary to federal law. See
id. In comparison, the government’s only alleged hardship—that “an injunction would impede the Executive’s
historic discretion in conducting both the census and the
apportionment,” Defs.’ Opp’n at 49—is illusory. The
government has repeatedly stated that the Presidential
Memorandum has not and will not impact the conduct of
the census, and any impediment to the apportionment
would do no more than ensure that the government acts
lawfully. Id. at 11.
We therefore enjoin all of the defendants except the
President from including in the Secretary’s Section
141(b) report any “information permitting the President
. . . to exercise [his] discretion to carry out the policy
set forth in section 2” of the Presidential Memorandum
—that is, any information concerning the number of
non-citizens in each state “who are not in a lawful immigration status under the Immigration and Nationality
Act.”
Presidential Memorandum, 85 Fed. Reg. at
44,680. The Secretary must include only one number
in his Section 141(b) report: “[t]he tabulation of total
population by States” as derived by the decennial census, which includes undocumented immigrants who are
inhabitants of the United States. See 13 U.S.C. § 141(b).
And in light of the Census Bureau’s stated plan to send
“other Presidential Memorandum-related outputs” to

35a
the President after the statutory deadline for the Section 141(b) report, see Fontenot Decl. ¶ 8, La Unión Del
Pueblo Entero, No. 8:19-cv-2710, ECF No. 126-1, the
government also is enjoined from transmitting to the
President any data or information on the number of undocumented immigrants in each state intended for use
in apportionment. The government may, however,
continue to collect data regarding the number of undocumented immigrants in each state if it so chooses.
Finally, and for similar reasons, we grant the plaintiffs’ request for declaratory relief. Granting declaratory relief often “serve[s] a useful purpose in clarifying
and settling the legal relations in issue.” Centennial
Life Ins. Co. v. Poston, 88 F.3d 255, 256 (4th Cir. 1996)
(citation omitted). This is particularly important here
because we decline to grant injunctive relief against the
President, even though he is the central actor in reapportionment. And granting declaratory relief firmly
settles the legal questions at issue for the governmental
actors who may continue to collect data relevant to
counting the number of undocumented immigrants in
each state. Accordingly, we declare that the Presidential Memorandum is ultra vires, in violation of 2 U.S.C.
§ 2a and 13 U.S.C. § 141, to the extent it directs or permits the exclusion of undocumented immigrants from
the total population to be used for reapportionment and
because it directs the Secretary to include in his Section
141(b) report, and the President to base reapportionment on, data collected outside the decennial census.

36a
V.

For the reasons given above, we grant the plaintiffs’
motion for partial summary judgment. We need not
and do not reach the merits of plaintiffs’ other claims. 10
11/06/2020
Date
/s/
PAMELA A. HARRIS
United States Circuit Judge
/s/
ELLEN L. HOLLANDER
United States Circuit Judge
/s/
PAULA XINIS
United States Circuit Judge

We believe that this matter was properly heard by a three-judge
panel for the reasons set forth in Judge Xinis’s request to Chief
Judge Gregory for the appointment of such a panel. ECF No. 21.
Nevertheless, we follow the lead of prior three-judge panels by certifying that Judge Xinis, to whom this case was originally assigned,
individually arrived at the same conclusions that we have reached
collectively. See, e.g., New York, 2020 WL 5422959, at *36 n.21.
10

37a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND

No. 8:20-cv-02225-PX-PAH-ELH
NATALIA USECHE, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, ET AL., DEFENDANTS
Filed:

Nov. 6, 2020
ORDER

For the reasons stated in the foregoing Memorandum Opinion, it is this 6th of November 2020, by the
United States District Court for the District of Maryland ORDERED that:
1. The motion of Natalia Useche et al. for partial
summary judgment and for declaratory relief (ECF No.
19), as set out in Counts IV and V of the amended complaint (ECF No. 18 ¶¶ 13436, 14247) is GRANTED;
2. The Court hereby DECLARES that the Presidential Memorandum and the policy announced and directed therein is ultra vires, in violation of 2 U.S.C. § 2a
and 13 U.S.C. § 141 to the extent it directs or permits
the exclusion of undocumented immigrants from the total population to be used for reapportionment and because it directs the Secretary to include in his Section

38a
141(b) report, and the President to base reapportionment on, data collected outside the decennial census.
3. Defendants, except the President himself, are
hereby ENJOINED from transmitting to the President
any data or information on the number of undocumented
immigrants in each state to be used for reapportionment.
4. The Clerk is directed to TRANSMIT copies of
the foregoing Memorandum Opinion and this Order to
counsel for the parties.
5.

The Clerk is directed to close the case.

IT IS SO ORDERED.
11/06/2020
Date
/s/
PAMELA A. HARRIS
United States Circuit Judge
/s/
ELLEN L. HOLLANDER
United States Circuit Judge
/s/

PAULA XINIS
United States Circuit Judge

39a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND

No. 8:20-cv-02225-PX-PAH-ELH
NATALIA USECHE, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, ET AL., DEFENDANTS
Filed:

Nov. 6, 2020

NOTICE OF APPEAL

Notice is hereby given that all defendants in the
above-named case hereby appeal to the Supreme Court
of the United States from the final judgment entered on
November 6, 2020. This appeal is taken under 28
U.S.C. § 1253.
Respectfully submitted,
JEFFREY BOSSERT CLARK
Acting Assistant Attorney General
JOHN V. COGHLAN
Deputy Assistant Attorney General
ALEXANDER K. HAAS
Branch Director

40a
DIANE KELLEHER
BRAD P. ROSENBERG
Assistant Branch Directors
/s/

ELLIOTT M. DAVIS
ELLIOTT M. DAVIS
DANIEL D. MAULER
ELLIOTT M. DAVIS
Trial Attorneys
Civil Division, Federal Programs Branch
U.S. Department of Justice
1100 L St. NW
Washington, DC 20005
Phone: (202) 514-4336
Fax: (202) 616-8470
E-mail: elliott.m.davis@usdoj.gov
Counsel for Defendants

41a
APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND

No. 8:20-cv-02225-PX
NATALIA USECHE, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, ET AL., DEFENDANTS
Filed:

Aug. 26, 2020
ORDER

The Honorable Paula Xinis has requested appointment of a three-judge district court in the above-captioned case, in which plaintiffs challenge, on constitutional and other grounds, the exclusion of undocumented
non-citizens from the apportionment base to be determined by the 2020 Decennial Census. See Presidential
Memorandum of July 21, 2020, Excluding Illegal Aliens
from the Apportionment Base Following the 2020 Census, 85 Fed. Reg. 44,679, 44,680 (July 23, 2020).
A district court of three judges is to be convened
“when otherwise required by Act of Congress, or when
an action is filed challenging the constitutionality of the
apportionment of congressional districts or the apportionment of any statewide legislative body.” 28 U.S.C.
§ 2284(a). When a request for a three-judge panel is
received, “the judge to whom the request is presented
shall, unless [the judge] determines that three judges

42a
are not required, immediately notify the chief judge of
the circuit, who shall designate two other judges, at least
one of whom shall be a circuit judge.” 28 U.S.C.
§ 2284(b)(1).
NOW THEREFORE, I DO HEREBY DESIGNATE AND ASSIGN the Honorable Pamela A. Harris,
United States Circuit Judge for the Fourth Circuit, and
the Honorable Ellen L. Hollander, United States District Judge for the District of Maryland, to sit with the
Honorable Paula Xinis, the three to constitute a district
court of three judges to hear and determine this matter
as provided by 28 U.S.C. § 2284.
This 26th day of August, 2020.
/s/ ROGER L. GREGORY
ROGER L. GREGORY
Chief Judge, U.S. Court of Appeals
For the Fourth Circuit

43a
APPENDIX E

UNITED STATES DISTRICT COURT
DISTRICT OF MARYLAND
CHAMBERS OF
Paula Xinis
UNITED STATES
DISTRICT JUDGE

6500 Cherrywood Lane
Greenbelt, MD 20770
(301) 344-0653
Aug. 17, 2020

Via email & Filed On ECF

Honorable Roger L. Gregory
Chief Judge
United States Court of Appeals
For the Fourth Circuit
Lewis F. Powell, Jr. U. S. Courthouse
1000 East Main Street, Suite 212
Richmond, VA 23219-3518
Re:

Useche et al. v. Trump et al.
District Court Case No. PX-8:20-02225

Dear Chief Judge Gregory,
This letter requests appointment of a three-judge
panel in the above-captioned case, pursuant to 28 U.S.C.
§ 2284(a).
On July 21, 2020, the President of the United States
issued a memorandum directing the exclusion of undocumented non-citizens from the apportionment base to be
determined by the United States 2020 Decennial Cen-

44a
sus. See Excluding Illegal Aliens From the Apportionment Base Following the 2020 Census, 85 Fed. Reg. 44,679,
44,680 (July 23, 2020) (“the Memorandum”). Plaintiffs
challenge the Memorandum on various grounds, including that it unconstitutionally eliminates undocumented
non-citizens from the count of whole persons used for
the apportionment of congressional districts, in violation
of the Enumeration and Equal Protection Clauses of the
United States Constitution (Counts I, II, III). 1 ECF
No. 18. Plaintiffs also allege that Defendants’ adherence to the Memorandum is ultra vires in that it disregards the limitations established by Congress and
pertinent to the 2020 Decennial Census. See 13 U.S.C.

Several other District Courts are presiding over similar challenges to the Memorandum. See California v. Trump, 20-CV-5169
(J. Koh) (N.D. Cal. filed July 28, 2020); City of San Jose v. Trump,
20-CV-5167 (J. Koh) (N.D. Cal. filed July 27, 2020); Haitian-Americans
United, Inc. v. Trump, 20-CV-11421 (J. Woodlock) (D. Mass. filed
July 27, 2020); New York v. Trump, 20-CV-5770, and New York Immigration Coalition v. Trump, 20-CV-5781, (J. Furman) (consolidated) (S.D.N.Y. both filed July 24, 2020); Common Cause v. Trump,
20-CV-2023 (J. Cooper) (D.D.C. filed July 23, 2020). As here, two
of these matters have been referred to the Chief Judges of their
respective Circuits for three-judge panel appointments pursuant
to § 2284(a), and there is an unopposed pending request for referral
in another. See Panel Referral, New York v. Trump, 20-CV-5770
and New York Immigration Coalition v. Trump (S.D.N.Y. Aug. 20,
2020), ECF No. 68; Motion to Convene Three-Judge Court, Common Cause v. Trump, 20-CV-2023 (J. Cooper) (D.D.C. Aug. 11, 2020),
ECF No. 29. This Court is also presiding over La Union Pueblo Entero, et al. v. Trump et al., No. 8:19-CV-2710-PX (“LUPE”), in which
Plaintiffs’ Second Amended Complaint, filed August 13, 2020, raises
near identical constitutional and ultra vires challenges to the Memorandum. This Court intends to refer LUPE to Your Honor for
similar consideration by separate correspondence.
1

45a
§ 141, 13 U.S.C. § 195, 2 U.S.C. § 2a (Counts IV and V).
ECF No. 18.
On August 13, 2020, Plaintiffs filed an unopposed lettermotion requesting that the matter be referred to a
three-judge panel pursuant to 28 U.S.C. § 2284(a).
ECF No. 17. Section 2284(a) provides that “a district
court of three judges shall be convened” when an action
challenges “the constitutionality of the apportionment of
congressional districts.” 28 U.S.C. § 2284(a); see also
Shapiro v. McManus, 136 S. Ct. 450, 451 (2015). Further, Plaintiffs’ ultra vires claim challenges the “use of
[a] statistical method in violation of the Constitution or
any provision of law” which “shall be heard and determined by a district court of three judges in accordance
with section 2284.” Departments of Commerce, Justice, and State, The Judiciary, and Related Agencies
Appropriations Act, 1998, § 209(b), (e)(1) Pub. L. No.
105-119, 111 Stat. 2440, 2481-82 (1997) (“1998 Appropriations Act”) (codified at 13 U.S.C. § 141 note).
Accordingly, and based on a careful review of the
Amended Complaint, this Court concludes that Plaintiffs
present non-frivolous challenges to the Memorandum
that fall within the ambit of 28 U.S.C. § 2284. This Court
respectfully requests that you, as Chief Judge of this
Circuit, promptly appoint a three-judge panel to preside
over the claims presented by this litigation.
Thank you for your consideration. Should you require any additional information, please do not hesitate
to contact me.
/S/
Paula Xinis
United States District Judge

46a
cc:

Chief Judge James Bredar, United States District
Court
Kimberly Smith, Law Clerk to the Hon. Chief
Judge Roger Gregory
Thelma Evans, Judicial Assistant to the Hon. Chief
Judge Roger Gregory
Patricia Connor, Clerk, United States Fourth Circuit Court of Appeals

47a
APPENDIX F

1.

U.S. Const. Art. I, § 2 provides:

The House of Representatives shall be composed of
Members chosen every second Year by the People of the
several States, and the Electors in each State shall have
the Qualifications requisite for Electors of the most numerous Branch of the State Legislature.
No Person shall be a Representative who shall not have
attained to the Age of twenty five Years, and been seven
Years a Citizen of the United States, and who shall not,
when elected, be an Inhabitant of that State in which he
shall be chosen.
Representatives and direct Taxes shall be apportioned
among the several States which may be included within
this Union, according to their respective Numbers,
which shall be determined by adding to the whole Number of free Persons, including those bound to Service for
a Term of Years, and excluding Indians not taxed, three
fifths of all other Persons. The actual Enumeration
shall be made within three Years after the first Meeting
of the Congress of the United States, and within every
subsequent Term of ten Years, in such Manner as they
shall by Law direct. The Number of Representatives
shall not exceed one for every thirty Thousand, but each
State shall have at Least one Representative; and until
such enumeration shall be made, the State of New
Hampshire shall be entitled to chuse three, Massachusetts eight, Rhode-Island and Providence Plantations
one, Connecticut five, New-York six, New Jersey four,
Pennsylvania eight, Delaware one, Maryland six, Virginia ten, North Carolina five, South Carolina five, and
Georgia three.

48a
When vacancies happen in the Representation from any
State, the Executive Authority thereof shall issue Writs
of Election to fill such Vacancies.
The House of Representatives shall chuse their Speaker
and other Officers; and shall have the sole Power of Impeachment.
2.

U.S. Const. Art. II, § 2, cl. 2-3 provides:

He shall have Power, by and with the Advice and Consent of the Senate, to make Treaties, provided two
thirds of the Senators present concur; and he shall nominate, and by and with the Advice and Consent of the
Senate, shall appoint Ambassadors, other public Ministers and Consuls, Judges of the supreme Court, and all
other Officers of the United States, whose Appointments are not herein otherwise provided for, and which
shall be established by Law: but the Congress may by
Law vest the Appointment of such inferior Officers, as
they think proper, in the President alone, in the Courts
of Law, or in the Heads of Departments.
The President shall have Power to fill up all Vacancies
that may happen during the Recess of the Senate, by
granting Commissions which shall expire at the End of
their next Session.

49a
3.

U.S. Const. Amend. XIV, § 2 provides:

Representatives shall be apportioned among the several
States according to their respective numbers, counting
the whole number of persons in each State, excluding
Indians not taxed. But when the right to vote at any
election for the choice of electors for President and Vice
President of the United States, Representatives in Congress, the Executive and Judicial officers of a State, or
the member of the Legislative thereof, is denied to any
of the male inhabitants of such State, being twenty-one
years of age, and citizens of the United States, or in any
way abridged, except for participation in rebellion, or
other rime, the basis of representation therein shall be
reduced in the proportion which the number of such
male citizens shall bear to the whole number of male citizens twenty-one years of age in such State.
4.

2 U.S.C. 2a provides:

Reapportionment of Representatives; time and manner;
existing decennial census figures as basis; statement by
President; duty of clerk

(a) On the first day, or within one week thereafter,
of the first regular session of the Eighty-second Congress and of each fifth Congress thereafter, the President shall transmit to the Congress a statement showing
the whole number of persons in each State, excluding
Indians not taxed, as ascertained under the seventeenth
and each subsequent decennial census of the population,
and the number of Representatives to which each State
would be entitled under an apportionment of the then
existing number of Representatives by the method

50a
known as the method of equal proportions, no State to
receive less than one Member.
(b) Each State shall be entitled, in the Eighty-third
Congress and in each Congress thereafter until the taking effect of a reapportionment under this section or
subsequent statute, to the number of Representatives
shown in the statement required by subsection (a) of this
section, no State to receive less than one Member. It
shall be the duty of the Clerk of the House of Representatives, within fifteen calendar days after the receipt of
such statement, to send to the executive of each State a
certificate of the number of Representatives to which
such State is entitled under this section. In case of a
vacancy in the office of Clerk, or of his absence or inability to discharge this duty, then such duty shall devolve upon the Sergeant at Arms of the House of Representatives.
(c) Until a State is redistricted in the manner provided by the law thereof after any apportionment, the
Representatives to which such State is entitled under
such apportionment shall be elected in the following
manner: (1) If there is no change in the number of
Representatives, they shall be elected from the districts
then prescribed by the law of such State, and if any of
them are elected from the State at large they shall continue to be so elected; (2) if there is an increase in the
number of Representatives, such additional Representative or Representatives shall be elected from the
State at large and the other Representatives from the
districts then prescribed by the law of such State; (3) if
there is a decrease in the number of Representatives but
the number of districts in such State is equal to such de-

51a
creased number of Representatives, they shall be elected from the districts then prescribed by the law of such
State; (4) if there is a decrease in the number of Representatives but the number of districts in such State is
less than such number of Representatives, the number
of Representatives by which such number of districts is
exceeded shall be elected from the State at large and the
other Representatives from the districts then prescribed by the law of such State; or (5) if there is a decrease in the number of Representatives and the number of districts in such State exceeds such decreased
number of Representatives, they shall be elected from
the State at large.
5.

13 U.S.C. 141(a)-(b) provides:

Population and other census information

(a) The Secretary shall, in the year 1980 and every
10 years thereafter, take a decennial census of population as of the first day of April of such year, which date
shall be known as the “decennial census date”, in such
form and content as he may determine, including the use
of sampling procedures and special surveys. In connection with any such census, the Secretary is authorized to obtain such other census information as necessary.
(b) The tabulation of total population by States under
subsection (a) of this section as required for the apportionment of Representatives in Congress among the
several States shall be completed within 9 months after
the census date and reported by the Secretary to the
President of the United States.

